HHS/OIG-Audit--"Audit Report - Centers for Disease Control Small Purchases, (A-04-90-04016)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit Report - Centers for Disease Control Small Purchases," (A-04-90-04016)
February 19, 1992
Complete
Text of Report is available in PDF format (603 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if small purchase acquisitions were being accomplished in a manner that
is effective, efficient, economical, and in accordance with Federal Acquisition Regulations. The review disclosed minor
procedural and clerical discrepancies related to: (1) improper object class designations, and (2) inappropriate contracting
officer signatures on purchase orders. We recommended that CDC's contracting officers routinely verify the accuracy of
object class designations so that the resulting accounting information and reports will reflect the goods and services
purchased. We also recommended that the CDC's Procurement and Grants Office (PGO) assure proper adherence to the contracting
officers' signature requirements. The CDC officials concurred with our findings and recommendations.